Bryce L. Friedman
Counsel of Record
Simpson Thacher & Bartlett LLP
425 Lexington Ave
New York, NY 10017
bfriedman@stblaw.com
(212) 455-2235
Attorneys for Petitioners ACE American Insurance Company, et al.
Frank C. Quesada
John H. Ruiz
MSP Recovery Law Firm
2701 S. Le Jeune Road, 10th Floor
Coral Gables, Florida 33134
fquesada@msprecovery.com
(305) 989-2503
Francesco A. Zincone
Armas Bertran Pieri
4960 SW 72 Avenue, Suite 206
Miami, Florida 33155
fzincone@armaslaw.com
(305) 661-2021
Attorneys for MSP Recovery Claims, Series LLC

